                         DEPARTMENT
                         DEPARTMENTOF
                                    OFHEALTH
                                      HEALTH&.
                                             &. HUMAN
                                                HUMAN SERVICES
                                                      SERVICES                                                        Office
                                                                                                                      Office of
                                                                                                                             of Inspector
                                                                                                                                InspectorGeneral
                                                                                                                                          General
(~~'f:
~.. :;

 ''0 :.lt'VcI)(J                                                                                                      Washington,  D.C. 20201

                                                                                                                      Washington, D.C.   20201




                                                                               NOV 119
                                                                               NOV      2008
                                                                                     9 2008



                   TO:
                   TO: Kerry  Weems
                           Kerry Weems
                                          Acting Administrator
                                           Centep~d Servces
                                           center;~ d   Services

                   FROM:
                   FROM: oseph E.E.Vengrn
                            oseph   Vengrin
                                                  Inspector General
                                           Deputy Inspector General for Audit Services
                                                                              Services


                   SUBJECT: Centers
                   SUBJECT:   Centers
                                    forfor Medicare
                                        Medicare     MedicaidServices
                                                 & &Medicaid  ServicesResolution
                                                                       ResolutionofofAudit
                                                                                      AuditRecommendations
                                                                                           Recommendations
                              (A-07-07-04112)
                              (A-07-07-04112)


                   The attached final report provides the results of our review of the Centers for Medicare &
                   The attached final report provides the results of our review of 	

                   Medicaid Services (CMS) resolution of of audit recommendations.

                   CMS is responsible for resolving Federal and non-Federal audit report recommendations related
                                      grantees, and contractors
                   to its activities, grantees,     contractors within
                                                                within 66 months
                                                                          months after
                                                                                 afterformal
                                                                                        formalreceipt
                                                                                               receiptofthe
                                                                                                       ofthe reports.
                                                                                                             reports. The
                   Office  of Inspector   General prepares and  forwards  to CMS  monthly   stewardship
                   Offce of Inspector General prepares and forwards to CMS monthly stewardship           reports that
                   show the
                          the status
                              status ofthose
                                      ofthose reported audit recommendations.          review covered
                                                             recommendations. Our review      covered the audit
                   recommendations identified in stewardship reports for fiscal years (FY) 2006 and   and 2007.

                   Our objectives were to determine whether CMS had (1) resolved audit recommendations in a
                   timely manner   duringFY
                          maner during    FYs  2006 and
                                             s 2006  and 2007
                                                         2007 and
                                                              and (2)
                                                                  (2) resolved
                                                                      resolved all
                                                                               all audit
                                                                                   audit recommendations
                                                                                         recommendations that were
                   due for audit resolution by September 30, 2007.

                   During      FYs
                   Durng FYs 2006      2006
                                  and 2007,     and 2007,
                                            CMS resolved 3,462 ofCMS
                                                                  
       resolved 3,462 of the 4,650 audit recommendations that were
                   outstanding
                   outstanding durng this period. However, it did not resolve 2,813 of it
                                       during     this   period.      However,         
 did not resolve 2,813 ofthe the 3,462 recommendations
                   within the required 6-month period.           period. In   In addition,
                                                                                  addition, as as of
                                                                                                  of September
                                                                                                     September 30, 2007, CMS had not
                   resolved 1,188 audit recommendations
                                                     recommendations that were            were past
                                                                                               past due
                                                                                                     due for
                                                                                                         for resolution.
                                                                                                             resolution. The dollar amounts
                   associated with these recommendations totaled $1.165 billion.

                   CMS
                   CMS did
                         did not
                             not resolve
                                  resolve all
                                          allaudit
                                              auditrecommendations
                                                    recommendationsininaatimely
                                                                           timelymanner.  As aa result,
                                                                                  maner. As      result, CMS
                                                                                                         CMS did not
                   have reasonable assurance that it was exercising proper stewardship over Federal dollars.
                   However, CMS revised its audit resolution procedures during the audit period, resulting in
                   progress
                   progress toward
                            toward resolving
                                     resolving outstanding
                                                outstanding audit
                                                            auditrecommendations
                                                                  recommendationsininaamore
                                                                                         moretimely
                                                                                                timelymanner.
                                                                                                         maner.

                   We recommend
                       recommend that CMSCMS (1) resolve all audit recommendations within the required 6-month
                   audit resolution
                         resolution period and (2) resolve the 1,188 outstanding audit recommendations that were
                   past due as of September 30, 2007.
Page 2 – Kerry Weems


In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions undertaken.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including an action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at
George.Reeb@oig.hhs.gov. Please refer to report number A-07-07-04112 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     CENTERS FOR MEDICARE
      & MEDICAID SERVICES
      RESOLUTION OF AUDIT
       RECOMMENDATIONS




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-07-07-04112
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Department of Health and Human Services, Centers for Medicare & Medicaid Services
(CMS), is responsible for providing health care services to persons age 65 and over, those who
are disabled or have permanent kidney disease, and low-income individuals. CMS carries out
these responsibilities through internal activities and through grants and contracts that support a
number of health-care-related programs, including Medicare, Medicaid, and the State Children’s
Health Insurance Program.

Pursuant to Office of Management and Budget Circular A-50, section 8a(2), and other
authorities, CMS is also responsible for resolving Federal and non-Federal audit report
recommendations related to its activities, grantees, and contractors within 6 months after formal
receipt of the reports. The Office of Inspector General prepares and forwards to CMS monthly
stewardship reports that show the status of those reported audit recommendations. Our review
covered 4,650 audit recommendations identified in stewardship reports for fiscal years
(FY) 2006 and 2007.

OBJECTIVES

Our objectives were to determine whether CMS had (1) resolved audit recommendations in a
timely manner during FYs 2006 and 2007 and (2) resolved all audit recommendations that were
due for audit resolution by September 30, 2007.

SUMMARY OF FINDINGS

During FYs 2006 and 2007, CMS resolved 3,462 of the 4,650 audit recommendations that were
outstanding during this period. However, it did not resolve 2,813 of the 3,462 recommendations
within the required 6-month period. In addition, as of September 30, 2007, CMS had not
resolved 1,188 audit recommendations that were past due for resolution. The dollar amounts
associated with these recommendations totaled $1.165 billion.

CMS did not resolve all audit recommendations in a timely manner. As a result, CMS did not
have reasonable assurance that it was exercising proper stewardship over Federal dollars.
However, CMS revised its audit resolution procedures during the audit period and has made
progress in resolving outstanding audit recommendations in a more timely manner.

RECOMMENDATIONS

We recommend that CMS:

   •   resolve all audit recommendations within the required 6-month audit resolution period
       and

   •   resolve the 1,188 outstanding audit recommendations that were past due as of
       September 30, 2007.

                                                 i
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions undertaken. CMS’s comments are included in their entirety as the
appendix.




                                               ii
                                                TABLE OF CONTENTS

                                                                                                                                      Page

 INTRODUCTION.......................................................................................................................1

        BACKGROUND .................................................................................................................1
            Federal Audits..........................................................................................................1
            Non-Federal Audits..................................................................................................1
            Audit Resolution ......................................................................................................2
            Stewardship Reports ................................................................................................2
            Prior Audit Work .....................................................................................................3

        OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
             Objectives ................................................................................................................3
             Scope........................................................................................................................3
             Methodology ............................................................................................................4

 FINDINGS AND RECOMMENDATIONS .............................................................................4

        FEDERAL REQUIREMENTS............................................................................................5

        AUDIT RECOMMENDATIONS RESOLVED BUT NOT IN A TIMELY MANNER....5

        AUDIT RECOMMENDATIONS NOT RESOLVED ........................................................6

        PROGRESS TOWARD COMPLIANCE WITH FEDERAL REQUIREMENTS .............8

        LACK OF REASONABLE ASSURANCE OF PROPER STEWARDSHIP
         OVER FEDERAL DOLLARS .........................................................................................8

        RECOMMENDATIONS.....................................................................................................8

        CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ........................8

APPENDIX

        CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                  iii
                                                INTRODUCTION

BACKGROUND

The Department of Health and Human Services (HHS), Centers for Medicare & Medicaid
Services (CMS), is responsible for providing health care services to persons age 65 and over,
those who are disabled or have permanent kidney disease, and low-income individuals. CMS
carries out these responsibilities through internal activities and through grants and contracts that
support a number of health-care-related programs, including Medicare, Medicaid, and the State
Children’s Health Insurance Program.

CMS is also responsible for resolving Federal and non-Federal audit report recommendations
related to its own activities and to its grantees and contractors within 6 months after formal
receipt of the reports. 1

Federal Audits

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., the Office of Inspector General
(OIG) conducts audits of internal CMS activities, as well as activities performed by CMS
grantees and contractors. These audits are intended to provide independent assessments of CMS
programs and operations and help promote economy and efficiency. OIG uses its own resources
to conduct audits in accordance with generally accepted government auditing standards and
oversees audit work done by certified public accounting firms.

Non-Federal Audits

Office of Management and Budget (OMB) Circular A-133 requires periodic “single” audits of
non-Federal entities that expend $300,000 ($500,000 for fiscal years (FY) that ended after
December 31, 2003) or more in Federal awards in a year. 2 Single audits, usually conducted by
certified public accounting firms, are audits of all Federal awards to an entity.

OMB Circular A-133 states that the Federal awarding agency is responsible for issuing a
management decision within 6 months after formal receipt of the audit report for
recommendations that relate to its awards. A management decision is the evaluation of audit
recommendations and the proposed corrective action plan and the issuance of a written decision
on what corrective action is necessary. OMB Circular A-133, subpart D, §____.405(a), states:
“The management decision shall clearly state whether or not the audit finding is sustained, the
reasons for the decision, and the expected auditee action to repay disallowed costs, make
financial adjustments, or take other action. If the auditee has not completed corrective action, a
timetable for follow-up should be given.”


1
    Throughout this report, we use the term “recommendations” to refer to both audit findings and recommendations.
2
 Some State and local governments that are required by constitution or statute in effect on January 1, 1987, to be
audited less frequently than annually are permitted to undergo audits biennially. Nonprofit organizations also are
allowed to have biennial audits under certain conditions.


                                                           1
OIG’s National External Audit Review Center (NEAR) reviews the single audit reports for
compliance with OMB Circular A-133 and for conformance with professional standards. NEAR
transmits each CMS-related report to the CMS Audit Liaison Office and to the Regional CMS
offices. When appropriate, NEAR also issues Audit Alert memorandums to inform CMS of
significant audit recommendations. After resolving the audit recommendations, CMS issues a
management decision to the grantee or contractor and an audit clearance document to the OIG
audit resolution group.

Audit Resolution

In resolving Federal and non-Federal audit recommendations, CMS must comply with
OMB Circular A-50, section 8a(2), which requires “. . . prompt resolution and corrective actions
on audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

The HHS “Grants Administration Manual,” section 1-105, sets forth departmental policies and
procedures for resolving recommendations pertaining to grants, contracts, and cooperative
agreements. According to section 1-105-30(B)(1) of the manual, action officials must resolve
audit recommendations within 6 months of the end of the month in which OIG issued or released
the audit report. Resolution is normally deemed to occur when:

       •   action officials have reached a final decision on the amount of any monetary recovery;

       •   action officials have established a satisfactory plan of action, including time schedules, to
           correct all deficiencies; and

       •   OIG has cleared the report from its tracking system after receiving and accepting the
           audit clearance document(s) from action officials.

The 1982 Health Care Financing Administration’s (HCFA) 3 “HCFA Audit Resolution Manual,”
section 0704-3-20B, conveys guidance similar to that in the HHS “Grants Administration
Manual,” with emphasis on the communication of final decisions and corrective action plans to
auditees.

Stewardship Reports

The OIG audit resolution group prepares monthly stewardship reports on the status of audit
recommendations reported in Federal and non-Federal audits and forwards the stewardship
reports to the applicable HHS agency. We reviewed the “Outstanding Audits and Actions Taken
by Cognizance” stewardship reports for CMS. These reports identify all audit reports and
corresponding recommendations issued for the selected period and provide the action taken
(management’s decision) and the date of that action or indicate that no action has been taken.

3
    HCFA became CMS on July 1, 2001.


                                                     2
Prior Audit Work

We conducted this audit as the result of prior OIG audit work in 2005, which focused on CMS’s
audit resolution process as it pertained exclusively to eligibility determinations for Medicaid and
the State Children’s Health Insurance Program. 4 During that audit, CMS stated that it had
initiated a comprehensive restructuring of its entire audit resolution process for OIG audits.
CMS planned to complete this process by March 2006.

On May 4, 2006, CMS issued an internal Memorandum of Understanding outlining the new
CMS audit resolution process. Under these revised procedures, audit resolution processes related
to “internal” audit reports were to remain with CMS’s Central Office, 5 and audit resolution
processes related to “external” audit reports were transferred to CMS’s Region VII office in
Kansas City, Missouri. 6

For purposes of audit resolution, CMS defines “internal” audits as those that address policy
issues or systems issues and that require a response from the CMS Administrator. CMS defines
“external” audits as those involving entities other than CMS that receive Federal funds to operate
various Federal programs. External audits may be performed by OIG, independent certified
public accounting firms, Federal and State firms and auditors, or internal auditors of
organizations that receive Federal funds.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether CMS had (1) resolved audit recommendations in a
timely manner during FYs 2006 and 2007 and (2) resolved all audit recommendations that were
due for audit resolution by September 30, 2007.

Scope

Our current review was designed to assess CMS’s restructured audit resolution process. We
used the “Outstanding Audits and Actions Taken by Cognizance” stewardship reports for
FYs 2006 and 2007, which identified 1,081 audit reports and 5,163 corresponding
recommendations. We excluded 500 unresolved audit recommendations (in 76 audit reports)
that were not past due for audit resolution. In addition, from the FY 2007 stewardship report, we

4
“Resolution of Audit Findings on States’ Beneficiary Eligibility Determinations for Medicaid and the State
Children’s Health Insurance Program” (A-07-06-03073), issued May 2, 2006.
5
 Pursuant to the terms of the Memorandum of Understanding, CMS’s Office of Strategic Operations and Regulatory
Affairs, Division of Audit Liaison, was designated to share internal audit resolution responsibilities with the Office
of Operations Management’s Enterprise Project Management and Analysis Group (later renamed the Planning,
Performance Management & Analysis Group).
6
 CMS reorganized its regional offices into four consortium-based business lines in 2007. The Consortium for
Financial Management and Fee for Service Operations, located in Kansas City, Missouri, is responsible for audit
followup of external audits.


                                                          3
excluded 13 audit recommendations (in 12 audit reports) for a variety of reasons, including
revisions to the recommendation codes, changes in responsibility for resolution, and receipt of
additional information from CMS. We also changed three recommendations from the
unresolved category to the resolved category based on information received from CMS.

Our objectives did not require an understanding or assessment of CMS’s overall internal control
structure. We limited our review to gaining an understanding of controls over CMS’s audit
resolution process.

We performed fieldwork at the CMS regional office in Kansas City, Missouri.

Methodology

To accomplish our objectives, we:

   •   reviewed applicable sections of OMB Circulars A-50 and A-133, the HHS “Grants
       Administration Manual,” the 1982 “HCFA Audit Resolution Manual,” and other Federal
       requirements;

   •   reviewed CMS policies and procedures for resolving audit recommendations;

   •   reviewed the CMS internal report “Management Review of Monetary Audit
       Disallowances,” dated December 2004;

   •   interviewed CMS staff and reviewed documentation provided by CMS officials;

   •   determined whether CMS had resolved in accordance with Federal requirements the
       4,650 audit recommendations from the FY 2006–2007 stewardship reports that we
       identified for our review;

   •   reviewed working papers associated with previously issued OIG audits that tested the
       accuracy of information contained in the stewardship reports; and

   •   determined the dollar amounts associated with any unresolved recommendations that
       were beyond the required resolution period, as of September 30, 2007.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

During FYs 2006 and 2007, CMS resolved 3,462 of the 4,650 audit recommendations that were
outstanding during this period. However, it did not resolve 2,813 of the 3,462 recommendations


                                                4
within the required 6-month period. In addition, as of September 30, 2007, CMS had not
resolved 1,188 audit recommendations that were past due for resolution. The dollar amounts
associated with these recommendations totaled $1.165 billion.

CMS did not resolve all audit recommendations in a timely manner. As a result, CMS did not
have reasonable assurance that it was exercising proper stewardship over Federal dollars.
However, CMS revised its audit resolution procedures during the audit period and has made
progress in resolving outstanding audit recommendations in a more timely manner.

FEDERAL REQUIREMENTS

OMB Circular A-50, section 8a(2), requires “. . . prompt resolution and corrective actions on
audit recommendations. Resolution shall be made within a maximum of six months after
issuance of a final report or, in the case of audits performed by non-Federal auditors, six months
after receipt of the report by the Federal Government. Corrective action should proceed as
rapidly as possible.”

OMB Circular A-133, §____.405(d), states: “The entity responsible for making the management
decision shall do so within six months of receipt of the [non-Federal] audit report. Corrective
action should be initiated within six months after receipt of the audit report and proceed as
rapidly as possible.”

According to the HHS “Grants Administration Manual,” section 1-105-30(B)(1), action officials
must resolve audit recommendations pertaining to grants, contracts, and cooperative agreements
within 6 months of the end of the month in which OIG issued or released the audit report.

According to the 1982 “HCFA Audit Resolution Manual,” section 0704-3-20B, action officials
are required to resolve audit findings within 6 months of the date on which OIG issued the final
audit report.

AUDIT RECOMMENDATIONS RESOLVED BUT NOT IN A TIMELY MANNER

Of the 3,462 audit recommendations that CMS resolved during FYs 2006 and 2007,
2,813 (81.2 percent) were not resolved within 6 months of the end of the month in which OIG
issued or released the audit report, as required. Table 1 shows the timeframes for resolving these
recommendations for FYs 2006 and 2007. Table 2 presents the same information for each of the
2 FYs individually.




                                                 5
                    Table 1: Timeliness of Audit Recommendations Resolved
                            in Fiscal Years 2006 and 2007 Combined
                                                          Number of Resolved      Percent of
                      Resolution Timeframe                 Recommendations          Total

            Resolved timely (within 6 months)                         649               18.8

            Resolved but not timely (beyond 6 months)
              1 year or less                                         1,140              32.9
              1+ year to 2 years                                       577              16.7
              2+ years to 3 years                                      365              10.5
              3+ years to 4 years                                      326               9.4
              4+ years to 5 years                                      146               4.2
              5+ years                                                 259               7.5
            Subtotal                                                 2,813              81.2

            Total                                                    3,462           100.0



            Table 2: Timeliness of Audit Recommendations Resolved in Each Year
                                                FY 2006                       FY 2007

                                         Number         Percent of     Number      Percent of
          Resolution Timeframe           Resolved         Total        Resolved      Total

  Resolved timely (within 6 months)      167               13.0        482              22.1

  Resolved but not timely
    (beyond 6 months)
    1 year or less                        499              39.0         641             29.4
    1+ year to 2 years                    212              16.5         365             16.7
    2+ years to 3 years                   146              11.4         219             10.0
    3+ years to 4 years                   149              11.6         177              8.1
    4+ years to 5 years                    29               2.3         117              5.4
    5+ years                               79               6.2         180              8.3
  Subtotal                              1,114              87.0       1,699             77.9

  Total                                 1,281             100.0       2,181             100.0


AUDIT RECOMMENDATIONS NOT RESOLVED

As of September 30, 2007, CMS had not resolved 1,188 audit recommendations that were past
due for resolution. The dollar amounts associated with these recommendations totaled
$1.165 billion. Table 3 presents additional information on the timeframes for these unresolved



                                                    6
 recommendations, and Table 4 presents additional information on the dollar amounts associated
 with these recommendations, categorized by recommended action.

             Table 3: Unresolved Audit Recommendations Past Due for Resolution
                                  as of September 30, 2007
                                                                            Dollar        Percent of
                                                                           Amounts         Dollar
                                                               Average      Beyond        Amounts
                                                             Days Beyond Required          Beyond
    Timeframe                                                 Required    Resolution      Required
 Beyond Required         Number of          Percent of Total  Resolution     Date         Resolution
  Resolution Date     Recommendations      Recommendations      Date     (in millions)      Date

1 year or less                229                  19.3              249.8       $552.2      47.4
1+ year to 2 years            213                  17.9              633.5        233.4      20.0
2+ years to 3 years           208                  17.5              987.1        197.9      17.0
3+ years to 4 years           196                  16.5            1,239.8        136.9      11.8
4+ years to 5 years           183                  15.4            1,628.9         31.8       2.7
5+ years                      159                  13.4            2,897.0         13.1       1.1
Total                        1,188                100.0                        $1,165.3     100.0



             Table 4: Unresolved Audit Recommendations Past Due for Resolution
                                 as of September 30, 2007—
                          Dollar Amounts by Recommended Action
                                                                      Dollar Amounts of
                                                                         Unresolved
                                                                      Recommendations
                                                                      Beyond Required
                                                                       Resolution Date
                             Recommended Action                          (in millions)

            Monetary Recommendations:
              Questioned Costs                                                $515.8
              Funds Put to Better Use                                           464.0
              Provide Documentation or Make Financial Adjustment                107.4
              Obtain Approval or Make Financial Adjustment                       48.0
            Subtotal                                                         $1,135.2

            Unable to Express an Opinion (Set Aside)                           $30.1
            Total                                                            $1,165.3




                                                   7
PROGRESS TOWARD COMPLIANCE WITH FEDERAL REQUIREMENTS

Since CMS implemented its revised audit resolution procedures in FY 2006 under its
Memorandum of Understanding, it has made progress in complying with Federal requirements
related to audit resolution.

Although CMS’s overall rate of timely resolution for FYs 2006 and 2007 combined was
18.8 percent (as shown in Table 1), CMS improved its timely audit resolution from 13.0 percent
in FY 2006 to 22.1 percent in FY 2007 (as shown in Table 2). This was a 70-percent
improvement in timely resolution from 1 FY to the next.

We also noted a significant increase in the number of audit recommendations that CMS resolved.
CMS resolved 1,281 recommendations during FY 2006 and 2,181 recommendations during
FY 2007—an increase of 70.3 percent.

LACK OF REASONABLE ASSURANCE OF PROPER STEWARDSHIP
OVER FEDERAL DOLLARS

CMS did not resolve all audit recommendations in a timely manner. As a result, CMS did not
have reasonable assurance that it was exercising proper stewardship over Federal dollars.
Although CMS made progress, ultimately it did not resolve 81.2 percent of the audit
recommendations in a timely manner. We encourage CMS to continue its progress toward
resolving all outstanding audit recommendations in a more timely manner.

RECOMMENDATIONS

We recommend that CMS:

   •   resolve all audit recommendations within the required 6-month audit resolution period
       and

   •   resolve the 1,188 outstanding audit recommendations that were past due as of
       September 30, 2007.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions undertaken. Specifically, CMS stated that it “has implemented
stronger internal controls that have allowed CMS to resolve audit recommendations within the
required timeframe.”

CMS also provided technical comments, which we have addressed as appropriate. CMS’s
comments are included in their entirety as the appendix.




                                               8
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
